                                                         NATIONAL SCIENCE FOUNDATION 

                                                          OFFICE OF INSPECTOR GENERAL 

                                                            OFFICE OF INVESTIGATIONS 


                                                  CLOSEOUT MEMORANDUM

 Case Number: 110120057                                                                                    Page 1 of 1



         OIG opened this investigation based on information provided that an NSF employee l had 1)
         abused her government travel card2 and that she had 2) stolen and forged a check belonging to
         her supervisor. 3

         On the first matter, our investigation determined that the employee had failed to pay travel card
         charges totaling over $2,000. Her travel card was cancelled and she was sent a debt collection
         notice notifying her that payroll deductions from her salary would be initiated to cover the
         unpaid balance on the travel card.

         In the second matter, the employee was indicted by a grand jury and pled guilty to charges of
         forgery along with two other unrelated charges. 4

         NSF OIG sent an Interim Investigation ReportS to NSF. NSF sent the employee a notice of
         proposal to remove her from employment due to her unacceptable conduct. 6 She was
         subsequently sent a letter of decision7 notifying her that she was being removed from
         employment with NSF. s

         No further investigative activity is warranted. This investigation is closed.




         1 Kim   A. Tran, Human Resource Specialist,                                      Branch.
         2 Tran's government travel card had an outstanding balance totaling $2,532.60 for charged incurred during official
         travel.
         3                                                                           (former Supervisor).
         4 (1) Identity theft, fmancialloss greater than $200; (2) Possession of controlled substance; (3) Other
            forgery/uttering; as well as a fourth charge, and (4) Other forgery, Employ as true. Sentencing is pending.
         5 Two addendums were also provided with additional information during the course of our investigation.
         6 Notice of Proposal to Remove sentto Tran on April 29, 2011.
         7 Letter of Decision sent to Tran on May 13,2011.
         8 Removal from employment at NSF was effective May 18, 2011.




NSF OIG Form 2 (1lI02)
                      National Science Foundation • Office of the Inspector General
                       4201 Wllson Boulevard, Suite II-70S, Arlington, Virginia 22230



                                             APR::",'1 3" 2011

CONFIDENTIAL


TO:
               Division of Human Resource Manaf!ement

FROM:             -
               Office of Inspector General

SUBJECT:       Interim Investigation Report (II 0 120057)


Please note: Ibis report contains confidential personal information and it should be disclosed
only to individuals who must have knowledge of its contents to facilitate NSF's assessment and
resolution of this matter. Unauthorized disclosure may result in personal criminal liability under
the Privacy Act, 5 U.S.C. § 552a(i)(1).


The attached Interim Investigation Report concerns an NSF employee in the
                  Branch of the' Division ofHurnan Resource Management'

We are referring this matter to you so that appropriate action can be taken by ~e
Foundation. Please advise me by Monday, May 2, 2011, of any actions taken regarding this
report.



Attachment

cc:
CONFIDENTIAL                                                                      CONFIDENTIAL




       National Science Foundation
        Office of Inspector General


                                                                                               - i \.:. '




                     Confidential
             Interim Investigation Report
               Case Number 110120057
                               April 13, 2011
                  This Confidential Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. Tills report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552<;.. Please take appropriate precautions handling this confidential report of investigation.

                                                                             NSF OIG Fo= 22b (11/06)
 CONFIDENTIAL                                                                           CONFIDENTIAL


 BACKGROUND
,In November 2010, the
                               1 informed the Office of Inspector General (OIG) of allegations
that an employee2. in                                             had (1) abused her NSF travel
card (had an outstanding balance totaling over $2,000) and that the employee had (2) stolen and
forged a check from her Supervisor3. As a result of this second incident, the NSF employee was
reassigned to a different Supervisor.4 In addition,        informed the OIG, that the theft and
forgery of the check had been reported to the Arlington County Police.                        '

INVESTIGATION

Review of Court Records'

  A review of the Arlington County General District Court's orr-line case recordss indicated that
  the employee was arrested on February 22, 2011, and charged with: other forgery/uttering
  (Felony - Class 5). Records show that the employee had been arrested previously on September'
, 30, 2010, on five other charges unrelated to the check theft and forgery incident. These charges
  were:

           (1)   Identity theft, fin;mcialloss greater than $200 (Felony - Class '6);
           (2)   Possession of controlled substance (Felony -:- Class 5);
           (3)   Possession of con.-trolled substance (Felony - Class 5);
           (4)   Possession of controlled substance (Misdemeanor - Class 1); and
           (5)   False identify s~lf to law enforcement (Misdemeanor - Class 1)

 A hearing was held on March 16,2011, for the above five charges as well as the forgery charge.
 At this hearing, the Arlington County General District Court dropped two of the possession of '
 controlled substance charges (items 3 and 4 above) and the one false identify self to law
 enforcement charge (item 5 above). The General District Court then transferred the two
 remaining September 30, 2010, arre~t charges as well as the February 22, 2011, charge to the
 Circuit Court for Grand Jury proceedings.

 On March 21, 2011, an Arlington County Grand Jury indicted the employee on three charges:
 (1) Identity theft, financial loss greater than $200; (2) Possession of controlled substance; (3)
 Other forgery/uttering; as well as a fourth charge, (4) Other forgery, Employ as true. A plea
 hearing is currently scheduled for April 14, 20 1 ~ .6




 2   ~ A. Tran, Human Resource Specialist




                                                       2
       CONFIDENTIAL                                                                               CONFIDENTIAL


       Review of Police Reports

       Incident 1

       Offense: Unauthorized Use of Vehicle/Stolen Vehicle

     A complamt was filed on August 19, 2010 by the manager of a rental car company8 that a
     female9 rented a vehicle on July 1, 2010 and was to return the vehicle on July 8,2010 and failecL _ _ _.
   _to=du::sD=:f>oticeAueried=tb:ec-operator~s_license_ (ot)number-tliat-was provIded, toJb.eIIl1il19cger,
 --~d the MOMatlohbbi:aifiid la.etitified.iCiiffereb.tilani-;d- indi~idU:3JI0~

 ----()n-September30;20·1O;-police-were-a:lerted-t<:n::cstolell-vehlc1e--ana-stbppecl.-ilie-iliivefl l-of-tlie
        vehicle. When asked to provide identification, the driver produced an OL which was later
        determined to belong to ~other individual12 • Pursuant to a search, .l2olice found'various loose
        pills/prescription drugs for which the driver did not have prescriptions.

       Incident 2
             ~,




       Offense: Other forgery, uttering.

       A complaint was filed with the Arlington County Police on November 19, 2010 by an
       individua114 who reported that a co-worker/friend had stolen a check from her residence and had
       forged her name on the check. The check was made out to the employee herself and was for
       $3,400. Arlington County Police investigated the matter, and arrested the employee.

       Interview of Employee's Former Supervisor
 -----.~--"---~------------"--------             ------              ------"._-----_.   --,   ~




--- - - On March 2l,-20H,the-employee'-s-fonner Supervisor15 was-interviewed byNSPIOIG-in order
         to obtain additional infonnation about the employee and the check theft/forgery incident. The
         former Supervisor reported that the employee was still employed and working at NSF. She
         explained that she and the employee had worked together for many years and were close friends.
         She said that in the Summer of 2010, she began to supervise the employee and that sometime
         around the end of September she received a call from the employee who said that she had been
       - arrestedand-needed-her-help-:--The-Supervisor saidsne-o-alleci-ilie employeebutofjail ana-took
         her to her apartment16. The fonner Supervisor said she reported this incident to HRM17 and was




       9   Kim Tran.

       11   Kim-Anh Thi Tran.
       12   Kim Tran allegedly had used her sister's identification (operator' s license).




                                                                     3
 CONFIDENTIAL                                                                              CONFIDENTIAL


 told that because the employee was off work and it was not an incident related to NSF that there
 was no action to be taken.

 The former Supervisor then explained that she receives an auto alert notice from her bank on a
 daily basis that provides her with her checking and savings account balances. On one day in
 November 2010 she noticed that her checking account balance had dropped significantly. She
 reviewed her bank account information and found out that there was a check for $3,400 made out
 to the employee. She said she' was very upset and confronted the employee, and the employee
 cried and told her that she was in dire straits and needed the money. The Supervisor said that she
 reported this incident to HRM18 and contacted the Arlington County police to file a report.

 The former Supervisor said that a meeting was held in HRM 19 and recommended that the
 employee be removed from her supervision and that the employee's access to electronic
 files/databases be revoked. NSF/OIG was provided a November 15,2010 email, confirming that
 the employee was informed that her access to systems with sensitive information had been
 terminated. In addition, the email showed that the employee had been assigned a new Supervisor
 in the HRM division. Th<? email also suggested the employee was told to report to the new
 Supervisor20 and was given work that was non-sensitive and did not involve access to personnel
 data/personal information.

 Other Relevant Information

 .On March 17, 2011, we contacted the Senior Human Resource Specialist of the HRM
             Branch21 , who informed us that the employee does not possess a federal ID card.
  Homeland Security Presidential Directive 1222 requires a "common identification standard for
  federal employees and contractors," and, pursuant to NSF policy,' "[i]n order to receive ID cards,
  applicants will need to provide two forms of identification (one of which must be a valid Federal
  or state government-issued photo ,ID) and will be fingerprinted."23 The primary NSF
               Human Resource Specialist 24 initially informed OIG that .the employee had a
. background investigation which was favorably adjudicated by the Office of Personnel
  Management in 2008. However, when we recently sought additional information the NSF
                        informed OIG that a background irivestigation has not, to date, been
  completed on the employee. From this scant and inconsistent information it appears that, for
  approximately three years, an individual who has access to sensitive, and confidential
  information including Personally Identifiable ~ormation, has not has a background check and
  has been utilizing paper visitor badges or other means to enter NSF premises. 25




                                         -
 :<2www.dhs.gov/xaboutllaws/gc_1217616624097.shtm#1, available quickly via goo.glfDOxHl.
 23 inside.nsfgov/safety/policieslbadges.jsp, available quickly via goo.g1l7WSFZ.


                                                                                                      .C




                                                      4
 CONFIDENTIAL                                                                    CONFIDENTIAL


 RECO:MMENDATION

  All NSF employees are "expected to adhere to basic standards of integrity and decency."
  Further, "NSF employees must not engage in criminal, dishonest, immoral, or any other conduct
  prejudici~ to the Government. NSF employees are responsible for knowing all statutes and any
  implementing regulations relating to their NSF and/or Federal positions."26 HRM staff must be
  held to this standard. They have access to employee records, and other sensitive and confidential
  information and databases. The activities described above, raise questions about whether the
  employee should be entrUsted to safeguard personal information, and whether the employee has
. displayed the necessary integrity that is expected of someone in a public position. We
  recommend that NSF review this Interim Investigation Report and deter:inine what actions are
  appropriate to ensure the integrity and security of NSF's programs and operations.




                                 /




 26   PersolID.el Manual 15, Chapter 1, section 143.


                                                       5
                    National Science Foundation. Office of the Inspector General
                     4201 Wllson Boulevard, Suite IT-70S, Arlington, Virg1nia 22230




                                            APR 1 5 201t-

CONFIDENTIAL


TO:
               Division of Human Resource Management

FROM:
               Office of Inspector General

SUBJECT:      Addendum to Interim Investigation Report (II 0 120057)


Please note: This report contains confidential personal information and it should be disclosed
only to individuals who must have knowledge of its contents to facilitate NSF's assessment and .
resolution of this matteL Unauthorized disclosure may result in personal criminalliabilitJ under
the Privacy Act; 5 U.S.C. § 552a(i)(1).


The attached information is being provided to supplement the Interim Investigation Report we
had forwarded to your office on April 13, 2011. It concerns an NSF employee in the
                      Branch of the Division of Human Resource Management.

Please contact Special Agent in Charge.                                               ) if you need
additional information.



Attachment

cc:                                     1
             CONFIDENTIAL                                                                           CONFIDENTL'lL


                                                  . ADDITIONAL INFORMATION

         Review of Circuit Couri Records
         On April 14,2011, a review of the Arlington County General District Court's on-line case records indicated that
         the employee1 pled guilty to the three charges listed below. A Pre-Sentence Report hearing is scheduled for
         July 1, 2011.                                                                                           .

                  (1) Possession of controlled sUQstance;
                  (2) O:ther forgery/uttering; and .
                  (3) Other forgery, Employ as true.


                                    Arlington County Circuit Criminal Division Results

I        CaseNumber                Defendant           I
                           ~--------------.----------------------------
                                                                               Charge                            I Hear Date    I Status
                                                                                                                                I
                                                                                                                                           i
                                                                                                                                           ,I
ICRlI000282-00             ITRAN, KIM-ANH Till         IDRUGS: POSSESS SCH lOR II                                107/0112011    /Active
ICRlI000283-00 ITRAN, KIM-ANH Tm IOTHER FORGERYIUTTERING                                         107/0112011                    [Active    I
jC-C-Rl-I-O-OO-2-84---0o-'IT-RAN--,KIM---ANH--T-m-r-Io-THE-R-F-O-R-G-E-R-Y-,E-:MP-L-O-Y-A-S-TR-UE-107/01l2011                   IActive.1

                                                   -Case CRlI000282-00 Details
                                                               ,
                                                               ICommenced by:
    I



                                                                                                                                           I
     . 'lase Number:                         Filed:                                     ILocality:    .
    I-C:RI1000282-00                         03/2112011           Direct Indictment     COMMONWEAL1H OF VA·

    IDefendant:                             ISex:              IRace:                   IDOB:
     TRAN, KJM:-ANH TID                      Male
    IAddress:
        Charge:
        DRUGS: POSSESSSCH lOR II
                                             Code Section:
                                             18.2-250
                                                               ICharge Type:
                                                                Felony   .
                                                                                        I~ass:
 IOffense Date:                             IArrest Date:     I
        09/30/2010                                           -I


                                                             Hearings
        f#1                                                                                                  i
                                                                                                I            I
                   Date       1   Time         Type         1Room I·        Plea   Duration I Jury                         Result
                                                                                                I
                                                                                                             !         •
                                          IGrand Jury .
                                                                                                         ~
        fll03/21120 11        19:30AM                       1           1                               . ITrueBill
        f2 103/24/2011
                                                            t
                              19:30AM     ITo Be Set        IlOD
                                                               .        I                        I           iSet For Trial
                                                                                                             I
        fl04/14/2011          /9:30AM     /Plea
                                                                                                ,I           IPresentence Ordered
                                                            FIGuilty /                          I
                              19 :30AM    Ipre-Sentence                                         I
        f107/O 1120 11               .    IReport           Fil                                 I            I

         1   Kim-Anh TID Tran, NSF Human Resource Specialist.
                                                                    2
 CONFIDENTIAL                                                                              CONFIDENTIAL




                                 Arlington County Circuit - Criminal Division

                                             Case CRll000283-00 Details



 [Case Number:                               Filed:               Commenced by:       /Locality:                    -
  CR11000283-00                              03/2112011           Direct Indictment   ICOJ\1MONWEALffi OF VA

 [Defendant:
 TRAN, KIM-ANH TIll
                                            [sex:              [Race: -               IDOB:
                                                                                                                        I·
                                                                                      li
 /Address:                                                                                                              f
                                            Icode Section:        Charge Type:                                              I
_ICharge:
                                                                                                                            I
                                                                                        lMS
- ,OTHERFORGERYfUTTERlNG                    ,18.2-172 -           Felony                       :


 IOffense Date":                            IArrest Date:
  11109/2010


                                                         Hearings
    f#1      Date·   Time I    . 'Type       IRoom I- Plea IDuration IJury I       Result
    fll03/2112011 j9:30AM Ir-Gr-an-d-Jury---I      I       I         I     ITrue Bill
    12103/24/2011 19:30AM ITo Be Set                        110D     I        j            I       ISet For Trial
    13104/14/201119:30AM IPlea                               110D    IGuilty I             IIPresentence Ordered
    14107/01/20U 1r-9-:3-0AM--,i-pr-e--S-en-te-n-ce-R-e-po-rt-110D   I       I             II




                                                              3
CONFIDENTIAL                                                            CONFIDENTIAL




                          Arlington County Circuit - Criminal Division

                                   Case CRlI000284-00 Details


,
    Case Number:                        Filed:            Commenced by: Locality:
                                                                                                f
    CR11000284-00                       03/2112011        Direct Indictment COMMONWEALTH OF     !
                                                                            VA                  I
                                                                                                I
IDefendant: . .                        Isex:          IRace:            IDOB:
 IRAN, :KIM:-ANH TID
IAddress:
Charge:                       Code Section: Charge Type:                I;lass:
OTHER FORGERY, EMPLOY AS TRUE i8.2-l72      Felony
 Offense Date:                         IArrest Date: I
I11/09/2010

                                               Hearings
     f#1    Date   I Time r-I--T-yp-e---IRoom r--IP-Ie-a-IDuration !Jury     I   Result
     fll03/21120l1 !9:30AM IGrand Jury    I           I        I        IITrue Bill
     [2103/24/2011 19:30AM ITo Be Set     !10D        I  I         ir-ISe-t-Fo-r-Tn-'al---
                            ~-----

     [3104114120 ~ 1 19:30AM !Plea            IlOD    IGuilty I         ilPresentence Ordered
     ~107/01l2011 19:30AM IPre-SentenceReport jlOD    I        I       II




                                                  4
                    National Science Foundation • Office of the Inspector General
                      4201 Wilson Boulevard, Suite II-70S, Arlington, Virg1nia 22230



                                          April 29, 2011


CONFIDENTIAL


TO:
               Division of Human Resource Management

FROM:
               Office of Inspector General

SUBJECT:       Addendum #2 to Interim Investigation Report (II 0120057)


Please note: This report contains confidential personal information and it should be disclosed
only to individuals who must have knowledge of its contents to facilitate NSF's assessment and
resolution of this matter. Unauthorizeddisc1osure may result in personal criminal liability under
the Privacy Act, 5 U.S.C. § 552a(i)(1).


The attached information is being provided to supplement the Addendum to the Interim
Investigation Report we had forwarded to your office on April 15, 2011. It concerns an NSF
employee in the                                  Branch of the Division of Human Resource
Management.

Please contact Special Agent in. Charge "                                              you need
additional information.



Attachment

cc:
CONFIDENTIAL                                                                     CONFIDENTIAL




                                           ADDITIONAL INFORMATION

Review of Circuit Court Records
On April 28, 2011, a review by NSF/OIG of the Arlington County, Circuit Court's on-line case records system,
indicated that the employee l pled guilty to the four charges listed below. For unknown reasons, a guilty plea on
the missing fourth charge (Identity Theft: Financial Loss> $200), was added to the records database after the
April 14, 2011, initiai entry by the Arlington County Circuit Court, which showed three guilty pleas. The initial
three guilty pleas were referenced in the April 15, 2011, addendum to the interim report issued by our office.
The Circuit Court, Clerk of Court office, was contacted and questioned by NSF/OIG, on how the fourth charge
was notincluded in the on-line records system when the original three charges where input on April 14, 2011.
No explanation could be provided. A Pre-Sentence Report hearing is scheduled for the employee, on July 1,
2011, for the four below charges:

           (1)   Identity Theft: Financial Loss> $200
           (2)   Possession of controlled substance;
           (3)   Other forgery/uttering; and;
           (4)   Other forgery, Employ as true


                              Arlington County Circuit Criminal Division Results

     'I   CaseNumber      1      Defendant        I             Charge                   'IHear Date IStatus I
      !CRll000281-00 jTRAN, KlM-AHN TID IIDENTY THFT: FINANC LOSS >$200                   107/0112011IActive
      \CRll000282-00 ITRAN, KlM-ANH THI In~uGs: POSSESS SCH lOR II                        j07701i2OiTIActive
      !CRll000283-00 ITRAN, KlM-ANH TID rOTHER FORGERYIUTTERING                           [07/0112011IActive
      ICRI1000284-00 ITRAN, KlM-ANH THI !OTHERFORGERY, EMPLOY AS TRUE fo7/0112011IActive!




1   Kim-Anh Thi Tran, NSF Human Resource Specialist.
                                                        2
CONFIDENTIAL                                                                          CONFIDENTIAL




                                  Arlington County Circuit - Criminal Division
                                                       Case Details
                                                                                                                !"


                                                                         ----Ir-
ICase Number:
 CR11000281-00
                                            Filed:
                                           103/2112011
                                                                Commenced by:
                                                                Direct Indictment
                                                                                      Locality:
                                                                                      COMMONWEALTH           OF I
I                                                            I                       IVA                        I
~efendant: ---------ISex:----IRace:                                                   U-O- B- : - - - - - - - -I
    TRAN, KlM-AHN TH_I                        Female            Black            (Non-            !
r--_~
j           ______________________                              H_is_P~_iC_)   __________________ I!
!Address:                                                                                                       I
                                                                                                                     I
    Charge:                               Code Section Charge Type:
                                                                                     r~S:                           1

                                                                                                                    I!
                                                                                                                    I

    IDENTY       THFT:    FINANe      LOSS:            Felony
    >$200                                 18.2-186.3
!offense Date:                                Arrest Date:                                                           !
    07/01/2010                                12/2112010 !                                                          I
                                                                                                                    j
              Hearings

      ,--
      1#1
       #      Date         Time
      1 103121/2011 19:30AM IGr~dJury
                                          Type            Room
                                                          I         I
                                                                        Plea Duration [Jury
                                                                                I
                                                                                       Jury   I
                                                                                      ~ITrueBi1l
                                                                                                  Result


      ~
      2 f03/24/2011      19:30AM ITo Be Set               110D      I       I         ~ISet For Trial
      [3
      3 [04/14/2011      19:30AM IPlea                    110D      IGuilty I         ~IPresentence Ordered
     -[4
      I
       4 107/01/2011 19:30AM IPre-Sentence Report 110D              I           I     ~I




                                                            3
CONFIDENTIAL                                                            CONFIDENTIAL




                          Arlington County Circuit - Criminal Division
                                            Case Details
                                                      Commenced by: ILocality:
 ~-----------------------~---------.-----------I----------------

  Case Number:                     Filed:
 ICR11000282-00                    0312112011         Direct Indictmeht COMMONWEALTH OF VA
  Defendant:                       Isex:           IRace:            I'DOB:
  TRAN,  KIM-ANH THI                Male
 I
 I
  Ad.!re.,:

 !Charge:
 IDRUGS: POSSESS SCH lOR II
                                   Code Section: ~harge Type:
                                   18.2-250
                                                                   1~IaSS:
                                                 r-IF_el_o_ny______'--__________________
                                                                                                     II
 jOffense Date:                    Arrest Date:                                          I
 109/30/2010                                                                                         1-
                                                                                                     !
          Hearings
  ffil,
  I       Date    )Time           Type           IRoom I Plea /Duration \Jury   I   Result
                                                                                                -I



  r1 103/2112011 19:30AM IGrand Jury             I              I       ifrueBill                I
  ~103/24/2011 19:30AM ITo Be Set                [lOD                   ilSet For Trial
                                             -                  I                                I
                         I
  [3104/14/2011 _19:30AM jPlea              110D        IGuilty I,      ilpresentence Ordered
  ~107/0112011 19:30AM !Pre-Sentence Report 110D        I       I       1--1




                                                  4
CONFIDENTIAL                                                                   CONFIDENTIAL




                             Arlington County Circuit - Criminal Division
                                                 Case Details
 'case Number:                       I'Filed:          Commenced by: Locality:
                                                                          ,I



 ICR11000283-00                       03/2112011       Direct Indictment COMMONWEALTH OF VA
 r--D-e-fe-n-da-n-t-:~----'---II Sex:                  IRace:             IDOB. :
  TRAN, KlM-ANH THI
 IAddress:
  Charge:                            ICode Section: Charge Type:          I~lass:                           J
                                                                                                            I
  OTHER FORGERYIUTTERING             ,18.2-172         Felony
 IOffense Dale:                       Arrest Date:
  1110912010                                           I                                                    \

                                                                                                            !


  Hearings
  Gil   Date      I   Time           Type            jRooml Plea IDuration IJury 1  Result
                                                     I    I      I
                              I
  11 103/2112011 f9:30AM IGrand Jury                                     . ~ITrue Bill
  [2/03/24/2011 /9:30AM ITo Be Set                   110D   I       I          , ' S e t For Trial
  [3\04/14/2011 19:30AM IPlea                        110D   IGuilty , .        ,IPresentence Ordered
  [4107/0112011 19:30AM IPre-Sentence Report 110D           I       i-'I                               -I




                                                      5
CONFIDENTIAL                                                                      CONFIDENTIAL




                               Arlington County Circuit - Criminal Division
                                                  Case Details
                                                                                                   !,
    Case Number:
    CR11000284-00
                                           Filed:
                                           03/21/2011           .Commenced hy   Locality:
                                                                                COMMONWEALTH OF VA            I!
                                                                Direct
I                                                               Indictment
 Defendant:                                Sex:                 Race:           DOB:
ITRAN, KIM-ANH THI
IAddress:
ICharge:
[OTHER FORGERY, EMPLOY
                                          Code Section Charge Type:
                                       AS :            Felony
                                                                                1;lass:
I TRUE                                    18.2-172
I                                                                                                                  I,,
IOffense Date:                             Arrest Date:
    11/09/2010                                              I
                                                            I
                                                                                                                   f
                                                                                                                   I

             Hearings
     [#1    Date    I   Time    I      Type          [Room I Plea [Duration [Jury 1           Result
     fll03/2112011 19:30AM IGrand Jury               I           I         I      ilTrue Bill
     ~103/24/2011 19:30AM!To Be Set                  110D        "-1 --I          ir-ISe-t-F-or-T-ri-al----
     ["3104/14/2011 19:30AM r-IPl-ea-----[10D                    IGuilty          ilPresentence Ordered
     [4107/0112011 !9:30AM IPre-Sentence Report 110D             1




                                                        6
                                  National Science Foundation
                                  4201 Wilson Boulevard
                                  Arlington, Virginia 22230




   Date:           . April 29, 2011


  . To:             Kim A Tran
                    Human Resources Specialist
                    Division of Human Resource Management


   From:

                    Division of Human Resource Management

   Subject:         Notice of Proposal   to Remove
In accordance with 5 USC § 7513 and 5 CFRPart 752, Subpart D, this is notice that I
propose to remove you from your Human Resource Specialist position in the Division of
Human Resource Managenient("HRM") no· sooner than fifteen (15) days from the date of
your receipt of this notice. I am proposing··this. shortened notice period pursuant to 5 CFR §
752.404(d) because I have reasoh to believe that you have committed a trime for which a
sentence of imprisonment may be imposed.

As background, in November 2010, the Office of the Inspector General ("OIG") received
allegations. that you had abused your travel card and that you had stolen and forged a check
from your su·pervisor at the t i m e , . The OIG subsequently initiated an
investigation intothese allegations.

On April 13, 2011, the OIG issued Interim Investigation Report Number 110120057. On April
15, 2011, the OIG issued an Addendum·to this Inte(im Investigation Report. Each of these
reports is incorporated into this notice of proposal by reference: The reports contained
additional information about the allegation involving f             J stolen and forged- check, .
as well as information about other criminal activity in which you engaged ..


•Charge: Unacceptable Conduct

Specification #1

In November 2010, _                  noticed that her checking account balance had dropped
Significantly. She reviewed her bank information and discovered that there had been a
check made out to you for $3,400 that had been debited from her account.
had neither written this check out to you, nor signed this check. Shortly after this discovery,
,              .:;onfronted you about the check. Upon being confronted, you admitted that
you had, in fact, stolen the check from!               and forged her signature~

On February 22, 2011, in connection with these actions, you were arrested and charged
with Other Forgery/Uttering, a Class 5 felony. On March 21, 2011, an Arlington County
Grand Jury indicted you on this charge, as well as a charge of Other Forgery/Employ as
                                                                                              2

 True, also a Class 5 felony. On April 14, ~011, you pled guilty to both of these charges.
 Based on the records contained in the reports, your sentencing on these felonies is currently
 scheduled for July 1,2011.

 Specification #2.

 On or about July 1, 2010, you r:ented a vehicle from a rental car company that was
 scheduled to be returned on July 8,2010. You failed to return the vehicle. Consequently,
 the manager of the rental car company filed a report with the police.. Upon rE;lceivingthe
 report, the police queried the operator's license number that you had provided to the
 manager at the time of rental. The individual who was identified as having that license
 number was someone other than you.

 On September 30, 2010, police were alerted to" the presence of this rental vehicle and
 stopped the vehicle. You were driving the vehicle at the time.' When asked to provide
 identification, you produced an operators license that belonged to another individual.
 SubsequE?ntly, the police conducted a search of the vehicle. Pursuant to this search, police
 found various loose pills and prescription drugs for which you did not have a prescription.

  On September '30, 2010, in connection with these actions, you were arrested and charged
  with: (1) Identity theft, financial Joss greater than $200 (Class 6 Felony); (2) Possession of
  controlled substance (Class 5 Felony); (3): Possession of controlled substance (Class 5
  Felony); (4) Possession of controlled substance (Class 1 Misdemeanor); and' (5) False
  identify self to law enforcement (Class 1 Misde~eanor). On March' 16, 2011, two of the
  Possession of Controlled Substance charges were dropped, as was the False identify self to
  law enforcement charge: On March 21,2011, an Arlington County Grand Jury indicted you
. on the charge of Identity theft and on one. Class 5 Felqny charg~ of Possession of controlled
  substance. On April 14, 2011, you pled guilty to both of these charges. Based on the
  recoras contained intlierepoiis, your-sentencing on these felonies is currently scheduled
  for July 1, 2011.

Based on the record evidence, and your guilty pleas to the four felony charges as outlined
above, I find that your 'conduct is unacceptable, particularly in light of the position that you
hold. Moreover, your actions have failed to comport'with the Standards of Ethical Conduct
for the Employees of the Executive Branch, as set forth in Executive Order 12674, as
modified by Executive Order 12731. Specifically, through your actions, you violated the.
principle that executive branch employees "shall endeavor to avoid any actions creating the
appearance' that they are violating the law or the ethical standards of conduct ... ,ThisD.


principle is also set forth in the Office of Government Ethics implementing regulations, as
well as NSF Manual 15, "Conflicts of Interest and Standards of Ethical Conduct."

 Considerations Underlying the Proposed Action

 The offenses, you are charged with are serious and significant, and bear directly on your
 honesty. and trustworthiness: You have admitted to stealing $3,400,from the individual who
 was serving as your supervisor at the time ·of the theft. The record also makes clear that
 you rented a veh.icle using someone else's identification, and produced the identification of
 another individual when the police stopped you on September 30, 2010. These actions on
 your part were committedintenti.o·nally and purposefully, and for personal gain.




                                                                                              2
                                                                                                3

  Your position of record is Human Resource Sp,ecialist in the
                             of NSF's Division of Human Resources Management.




   'Moreover, to perform the duties of your position, it is necessary for you tc:> have access to
", sensitive personal' information, 'including pefsonally identifiable information, of NSF
  'employees                                       'Your accesses included: Electronic Official
    Personnel Folders, the Federal Person-liel Payroll System, the
           System and--                                              ,Within-tRese-systems; you
    are privileged to names, addresses of' record, social security numbers, bank account
    numbers, salaries, and other private information. As such, your position requires you to
    have good judgment and a commitment to taking' the right action, being trustworthy,
    respectful, responsible, and otherwise of good character.               '

 ,You have engaged in conduct that is, in my opinion, unacceptable in any work environment,
  but particularly in the Division of Human Resource Management. In light of the nature of the
"criminal activity in which you engaged, I can no longer' trust you to handle the
  responsibilities of your position. I do not believe that you can serve as an able
  representative for HRM,and I have lost all confidence that you can be entrusted with access
  to sensitive and/or personally identifiable information which is required in the position that
  you hard. In addition, I believe that your continued employment would jeopardize the trust
  arid faith that NSF -employees                   have in HRM's ability to perform its functions
  in a responsible and forthright manner, Thus, I can, in good conscience, only reco'mmend
  the penalty of removal from the Foundation, as I do not believe any alternative sanction is
  appropriate.

  In proposing this action I have considered your 8 years of service with the National Science
  Foundation and your 19 years of Federal Service. Indte',that your record does not reflect
  any discipline having been issued to you during that time. I also note that your past
  performance appraisals have been favorable. However, I find these factors insufficient to
  offset the seriousness ofthe misconduct with Which you are,charged.                      '

  This notice is a proposal and not a final action. I am not the agency official who will render a
  decision in this case. That' determination will be made by ' _                      who is the
  geciding official. Before making any decision,                  must consider any oral and/or
  written reply or other documentation that you choose to provide. Therefore, I encourage you
  to take full advantage of your right to reply to this notice orally and/or in writing,. and to
  furnish affidavits and other documentGlry evidence that you wish to have' considered by -


                , will carefully review this proposal and the material upon which it was based,
  and will thoroughly consider any response made by you or your representative before
  making a decision. Because this is just a proposal, and no decision has been made, you
  are expected to work, as scheduled during th~ pr-oposal period. At the time we became
  aware of the alleged misconduct and the OIG investigation, your accesses to Personnel
  Systems were removed and those restrictions have remained in effect through this notice.
  Effective today, April 29, 2011, you are instructed to telework at your designated duty station
  and, you will continue to receive work assignments from'                            I. You are

  required to telephone                J daily at the beginning of your work day.




                                                                                                3
                                                                                               4


, You have seven (7) calendar days after the date that you receive this oroposal to reply orallY,'
  and/or in writing and to provide any other dqcunientary evidence'to .          " You ,have
  the right to be represented by an attorney or other representative of your choosing. You
  have the right to, a reasonable amount of work time to prepare your oral and/or written reply.
  You also have the right to review the material upon Which I have decided to propose your
  removal. Shouid you wish to do so, you 'may contaGt '                  Acting Branch Chief,
  Employee Relations, Branch, In the DIVISion of Ruman Resource Management.                    ,-----
  can be reached on extension        '                                     '

 Should you choose to file a written reply to this proposal, Y9U should ,direct it to
            ,who has been designated as, the deciding official in this. If you wish to reply
 orally, please contact                            ' to arrange an appointment.

  If you believe a personal problem has contributed to or caused your inappropriate behavior,
  I urge you to make an appointment with an Employe~ Assistance Program (EAP)
  Counselor. This is a confidential program, and you may reach a counselor by calling the '
  COPE at (202) 628-5100 to schedule an appointment. Recommending EAP is solely to
, advise you of the availability of assistance. Ultimately" you are responsible for your ,conduct.

 If you have any questions regarding your rights ,or the procedures used in this matter, you
 m~~~~                                                                                        ,




                                                                                               4
                                 National Science Foundation
                                 4201 Wilson Boulevard
                                 Arlington, Virginia 22230




     Date:          May 13, 2011


     To:            I<ffi1A.Iran
                    Human Resource ·Specialist
                    Division of Human Resource Management

     From:

                    Office of Information   & Resource Management
     Subject:       Letter of Decision

  By letter dated April 29, 2011,            . issued to you a Notice of Proposed Removal
  ("Notice"), in which she proposed to remove you from your position of Human Resource
  Specialist and from employment with the National Science Foundation ("NSF" or the
  "Foundation"). I was designated as the deciding official on that proposal. In the Notice, you
  were advised of your right to representation and your right to provide an oral and/or written
  response to me within 7 calendar days of your receipt of the proposal.· On May 6, 2011, you
. provided me with a timely written response via electronic mail.           You declined· the
  opportunity to make an oral response.

 I have given full consideration to the information regarding the Unacceptable Conduct
 charge contained in the Notice, as well as to the information that you provided to me in your
 May 6 response. I have determined that the charge of Unacceptable Conduct has been
 substantiated, based upon the evidence that has been presented, as well as your admission
 that you engaged in the misconduct outlined in the Notice. For the reasons set forth more
 fully below, I have also determined that the penalty of removal is appropriate in this case.


 The Charge of Unacceptable Conduct is Sustained.

 The proposal to remove you. from the Foundation is based on a charge of Unacceptable
 Conduct, and is supported by two specifications. Specification 1 describes an incident that
 occurred in November 2010, in which you stole $3,400 f r o m , your
 supervisor at the time, by stealing a blank check from her, making it out to yourself, and
 forging r             ; signature. As described in the Notice, you recently pled guilty to two
 felony charges of forgery in connection with this incident. Specification 2 describes an
 incident in which you rented a vehicle using identification that was not yours, and failed to
 return the vehicle to the rental car agency. As a result, the rental agency reported the
·vehicle as stolen. Subsequently, the police located the vehicle, which you were driving at
 the time. The officer stopped the vehicle, and asked you to produce identification. You
 produced identification that was not yours. In a subsequent search of the vehicle, the police
 found various pills and prescription drugs for which you did not have a valid prescription. As
 described in the Notice, you recently pled guilty to a felony charge of identity theft, and a
 felony charge of possession of a controlled substance in connection with this incident. You
                                                                                                                     2

               did not dispute any of thelSe .facts in your response. Therefore, I am sustaining the charge of
               Unacceptable Conduct against you.


               The Penalty of Removal Promotes the Efficiency of the Service.

               In your response, you indicate that your conduct was a result of
------------                                                                            ---------


                                                                                                  You explain
               that you have been· volunteering at a food bank and a women's center, which has proven to
               be quite fulfilling for you. Lastly, you note that you "did not take any personal identification
               information that [you] had access to at any period in time for [your] own personal gain.n In
               light of the above, you request that you be permitted to continue working at NSF in a lower-
               graded position on projects that do not involve working with personally identifiable
               information ("PI I"). ..                                                                 ... ~..~ ..~ ...~ ..

               As you concede in your response, the misconduct in which you engaged was serious and
               significant, as evidenced by the four felony charges to which you have pled guilty.
               Furthermore, notwithstanding your assertion to the contrary, the criminal actions in which
               you engaged certainly resulted in personal gain. Your theft and forgery of
               check resulted in a personal gain of approximately $3,400.00 for you. fn addition, you used
               the operator's license of another individual to rent a vehicle from a rental car agency. Your
               belief that your actions did not result in a personal gain are not persuasive.

               Moreover, your actions of forgery and identity theft unquestionably have a direct connection
               with your job responsibilities as a Human Resource Specialist in the
                          Branch of NSF's Division of Human Resource Management ("HRM"). The duties
               of this position·require access to sensitive,personal information of NSF employees
                                              including their addresses of record, social security numbers,
               bank account information, and other private information. As a result of the misconduct in
               which you engaged, it is my conclusion that you should not be entrusted with access to this
               information. Although your efforts to address the issues that might have led to your
               misconduct are encouraging, as you suggest in your response, such efforts do not ease the
               concern that I have about your reliability and trustworthiness in a division that traffics
               constantly in sensitive inform~tion, including PI!.

               In addition, by virtue of your position in HRM, you have frequent contact with NSF
               employees,                                            In light of your criminal misconduct, I
               share ,         . sentiment that you can no longer be relied upon to serve as an able
               representative of HRM. HRM is entrusted with a tremendous amount of responsibility for the
               Foundation, and its employees must be trustworthy, responsible, and of good character. In
               my opinion, your continued employment in HRM would jeopardize the faith and trust that
               HRM has earned, and must continue to earn, from NSF's employees,
                                                 and the public at large.

            I have considered your 8 years of service with NSF, as well as your 19 years of Federal
           'service. ) also recognize that this is your first disciplinary action, and that your performance
             during your tenure with NSF has been favorable. I also credit the steps you have taken, and
             that you will presumably continue to take, towards rehabilitation. I find that these factors,
             however, are insufficient to offset the seriousness of the misconduct in which you engaged -


                                                                                                                      2
                                                                                                   3

misconduct that impacts directly on your trustworthiness and honesty. Considering the
nature of your misconduct, and its direct nexus with your responsibilities as a Human
Resource Specialist with the Foundation, I cannot, in good conscience, honor your request
to continue as an employee of NSF.

In sum, after giving full and fair consideration to all the information before me, and in
accordance with 5 CFR Part 752, I find 'that the charge of Unacceptable Conduct is fully
supported by the evidence and that your removal from the Foundation will promote the
efficiency of the service. A~cordingly, I have decided to remove you from your position and
from employment with the Foundation effective May 18, 2011:


Redress

You have the right to appeal this action, in writing, to the Merit Systems Protection Board
("MSflB,,), Washington RegionaL Office,_1f3QQ J)JagonalRp_a9, AlexcmdriCi. Virginia,22314.
For your convenience, a copy of the MSPB appeal form and procedures are enclosed. If
you elect to appeal this action, you must file your appeal with the MSPB no ,later than 30
days after the effective date of your removal. You may be represented by a representative
of your choice in filing an appeal.

If you believe this action was motivated in whole or in part by discrimination because of your
race, color, religion, sex, age, national origin, physical or mental disability, or allegation(s)' of
reprisal for prior EEOactivity, you have the right to: (1) appeal this action and your
allegation(s) of discrimination and/or reprisal to the MSPB; or (2) file a complaint about this
action with NSF's Office of Diversity and IncluSion, pursuant to 29 CFR Part 1614. If you
decide to file a discrimination complaint about this action, you must bring your allegation(s)
of discrimination to the attention of an EEO counselor within forty-five (45) calendar days of
the effective date of your removal.                     .

Please note that exercising your right to file an appeal or complaint will not postpone the
May 18, 2011 date of your removal.




I ack~document



Signa re




                                                                                                   3
